(/"1
\,"~	
            DEPARTMENT OF HEALTH & HUMAN SERVICES	
                                                                                        Office of Inspector General
                                                                                        Offices of Audit Services



                                                                                        Region VII
                                                                                        601 East 12th Street
                                                                                        Room 284A
                                                                                        Kansas City, Missouri 64106
        October 3,2008

        Report Number: A-07-08-00269

        Ms. Sandra Miller

        President

        National Government Services, Inc.

        8115 Knue Road

        Indianapolis, Indiana 46250


        Dear Ms. Miller:

        Enclosed is the u.S. Department of Health and Human Services (HHS), Office of Inspector
        General (OIG), final report entitled "Review of the Qualified Pension Plall at New Hampshire­
        Vermont Health Service for the Period January 1, 1986, Through December 31, 2002." We will
        forward a copy of this report to the HHS action official noted on the following page for review
        and any action deemed necessary.

        The HHS action official will nlake final determination as to actions taken on all matters reported.
        We request that you respond to this official within 30 days from the date of this letter. Your
        response should present any comments or additional information tllat you believe may have a
        bearing on the final determination.

        Pllrsuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
        Public Law 104-231, OIG reports generally are made available to the public to the extent the
        information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
        will be posted on the Internet at http://oig.hhs.gov.

        If you 11ave any questions or comments about this report, please do not hesitate to call me at
        (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
        through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-08-00269
        in all correspondence.

                                                      Sincerely,



                                                             I:   1
                                                     Patrick J. ogley              t>

                                                     Regional Inspector General
                                                      for Audit Services


        Enclosure
Page 2 - Ms. Sandra Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Roon1 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




       REVIEW OF THE
  QUALIFIED PENSION PLAN AT
  NEW HAMPSHIRE – VERMONT
      HEALTH SERVICE
       FOR THE PERIOD
  JANUARY 1, 1986, THROUGH
     DECEMBER 31, 2002




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-07-08-00269
                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                 Notices

        THIS REPORT IS AVAILABLE TO THE PUBLIC
                  at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General reports
generally are made available to the public to the extent the information is not
subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and any other
conclusions and recommendations in this report represent the findings and opinions of
OAS. Authorized officials of the HHS operating divisions will make final determination
on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND


New Hampshire - Vern10nt Health Service (NH - VT) adn1inisters Medicare Part A operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).
On October 27, 1999, Anthem Insurance acquired NH - VT and on December 31,2002, Anthem
merged the NH - VT pension plan into its defined benefit pension plan.

Pension Plan

NH - VT sponsored a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee's retirement
benefit as defined by the plan's terms.

Since its inception, Medicare has paid a portion of contractors' contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Medicare contracts, Federal Procurement Regulations, the Federal Acquisition Regulation, and
the Cost Accounting Standards (CAS).

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts identify the criteria used in identifying the Medicare
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segn1ent assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether NIl - VT complied with Federal requirements and the
Medicare contracts' pension segmentation requirements when:

       •	   identifying the Medicare segment asset base as of January 1, 1986, and

       •	   updating the Medicare segment's assets from January 1, 1986, through

            December 31,2002.


SUMMARY OF FINDINGS

NH - VT properly calculated the initial allocation of the Medicare segment assets; however, it
did not always comply with Federal requirements and the Medicare contracts' pension
segmentation requirements while updating the Medicare segment assets from January 1, 1986,
through December 31, 2002. As a result, NH - VT overstated the Medicare segn1ent assets by
$163,046.
RECOMMENDATION

We recommend that NH - VT decrease its Medicare segment pension assets as of
December 31,2002, by $163,046.

AUDITEE COMMENTS

In written comments on our draft report, the auditee concurred with Ollr findings and
recommendation and stated that it will decrease the NH - VT Medicare segment pension assets
as of December 31, 2002, by $163,046.

The auditee's comments are included in their entirety as Appendix B.




                                             11
                             TABLE OF CONTENTS



INTRODUCTION                                                 1


    BACKGROUND                                               1

        Pension Plan                                         1

        Federal Requirements                                 1

        Pension Segnlentation                                1


    OBJECTIVE, SCOPE, AND METHODOLOGY                        2

         Objective                                           2

         Scope                                               2

         Methodology                                         2


FINDINGS AND RECOMMENDATION                                  3


    MEDICARE SEGMENT ASSET BASE (INITIAL ALLOCATION)         3

         Federal Requirements                                3

         Medicare Segment Asset Base as of January 1, 1986   4


    UPDATE OF MEDICARE SEGMENT ASSE1-'S                      4

         Federal ReqLlirements                               4

         Medicare Segment Asset Adjustment                   4

         Contributions and Prepayment Credits Understated    4

        Net r-rransfers Understated                          6

        Earnings, Net Expenses Overstated                    6


    RECOMMENDATION                                           7


    AUDITEE COMMENTS                                         7


APPENDIXES

    A - MARKET VALUE OF PENSION ASSETS FOR THE PERIOD

        JANUARY 1,1986, THROUGH DECEMBER 31,2002


    B - AUDITEE COMMENTS




                                      111
           Glossary of Abbreviations and Acronyms

CAS     Cost Accounting Standards
CMS     Centers for Medicare & Medicaid Services
FAR     Federal Acquisition Regulation
NH-VT   New Hampshire - Vern10nt Health Service
WAY     weighted average value




                             IV
                                        INTRODUCTION


BACKGROUND


New Hampshire - Vern10nt Health Service (NH - VT) administers Medicare Part A operations
under cost reimbursen1ent contracts with the Centers for Medicare & Medicaid Services (CMS).
On October 27, 1999, Anthem Insurance acquired NH - VT and on December 31,2002, A11them
merged the NH - v~r pension plan into its defined benefit pension plan.

Pension Plan

NI~ - VT sponsored a defined benefit pension plan, which is a deferred compensation plan in
which an employer Inakes actuarially determined contributions to fund an employee's benefit as
defined by the plan's terms. Once an employee satisfies the plan's age and service requirements
and retires, he or she is eligible to receive payment(s) from the plan. The plan accumulates assets
from employer contributions and net investment earnings to fund the actuarial liability for botl1
earned and projected futllre benefits. The amount of required anrlual employer contributions may
decrease or increase each year based on the annual determination of gain or loss (when actual
results differ from what is expected).

Since its inception, Medicare has paid a portion of contractors' contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Medicare contracts, the Federal Acquisition Regulation (FAR), and tl1e Cost Accounting
Standards (CAS).

Federal Requirements

CAS 412 regulates the determination and measurement of pension cost components. It also
regulates the assignment of pension costs to appropriate accounting periods.

CAS 413 regulates the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

CMS incorporated CAS 412 a11d 413 into the Medicare C011tracts effective October 1, 1980.
Starting in fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts identify the criteria used to identify the Medicare segn1ent and
specify the methodology for the identification and initial allocation of pension assets to the
segment. For each year after the initial allocation, the contracts require Medicare segment assets
to be updated in accordance with CAS 412 and 413. In claiming costs, contractors must follow
cost reimbllrsement principles contained in the FAR, CAS, and the Medicare contracts.
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to 'determine whether NH - VT complied with Federal requirements and the
Medicare contracts' pension segmentation requirements when:

        •	     identifying the Medicare segment asset base as of January 1, 1986, and

        •	     updating the Medicare segment's assets from January 1, 1986, through

               December 31,2002.


Scope

We reviewed NH -VT's initial allocation of the Medicare segment assets, and its update of
Medicare segment's assets from January 1, 1986, through December 31, 2002.

Achieving our objectives did not require us to review NH - VT's overall internal control
structure. However, we reviewed controls relating to its identification of the Medicare segment
and the update of the Medicare segment's assets.

We performed the audit work in the Region VII field office located in Jefferson City, Missouri.

Methodology

To accomplish our objective:

   •	        We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   •	        We reviewed the information provided by NH - VT's actuarial consulting firm, which
             included the pension plan's assets, liabilities, normal costs, contributions, benefit
             payments, investment earnings, and administrative expenses. We used this information
             to calculate the Medicare segnlent assets.

   •	        We obtained and reviewed the pension plan documents, actuarial valuation reports, and
             Department of Labor/Internal Revenue Service Form 5500s whicll provide information
             used in calculating the Medicare segment assets.

   •	        We provided the CMS Office of the Actuary with the actuarial information necessary for
             it to calculate the Medicare segment assets as of December 31, 2002.

   •	        We reviewed the CMS actuaries' methodology and calculations.

We performed this review in conjunction with our audit ofNH - VT's pension costs clainled for
Medicare reimbursement (A-07-08-00270). We used the information obtained during that audit in
this review.


                                                   2

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATION

NH - VT did not always comply with Federal requirements and the Medicare contracts' pension
segmentation requirements wl1ile updating the Medicare segment assets from January 1, 1986,
through Decen1ber 31, 2002. As a result, NH - VT overstated the Medicare segment assets by
$163,046.

Appendix A presents details of the Medicare segment's pension assets from January 1,1986,
through December 31, 2002, as determined during Ollr audit. Table 1 summarizes the audit
adjustments required to update Medicare segn1ent pension assets in accordance with Federal
reqllirements.

                         Table 1: Summary of Audit Adjustments
                                                   Per OIG PerNH- VT Difference
  Medicare Segment Asset Base (Initial Allocation)  $377,317   $377,317      $0

  Update of Medicare Segment Assets
    Medicare Segment Asset Adjustment                        535,722        586,142       (50,420)
    Contributions                                            300,482        265,496        34,986
    Benefit payments                                         443,354        443,354             0
    Transfers                                                 81,398         21,165        60,233
    Earnings, net expenses                                   750,624        958,469      (207,845)
  Overstatement of Medicare segment assets                                              ($163,046)

MEDICARE SEGMENT ASSET BASE (INITIAL ALLOCATION)

Federal Requirements

The Medicare contracts provide for separate identification of pension assets for the Medicare
segment. The initial allocation is determined by using the ratio of the actuarial liabilities of the
Medicare segment to the actuarial liabilities of the total plan as of the first day of the first plan
year after December 31, 1980, or the first day of the first plan year following the date the
Medicare segment existed, whichever is later. This ratio is known as the asset fraction. The asset
fraction is applied to the total company plan assets as of the first pension plan year after
December 31, 1985, or the first day of the first plan year following the date on which a Medicare
segment existed to determine the initial allocation of the Medicare segment assets.




                                                  3

Medicare Segment Asset Base as of January 1, 1986

NH - VT correctly calculated the asset fraction as of January 1,1981, to be 2.8139 percent, and it
correctly allocated $377,317 of assets to the Medicare segment as of January 1, 1986.

UPDATE OF MEDICARE SEGMENT ASSJ:TS

Federal Requirements

The Medicare contract states that "... the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7)." CAS 413.50(c)(7) requires that the asset
base be adjusted by contributions, permitted unfunded accruals, income, benefit payments, and
expenses. For plan years beginning after March 30, 1995, the CAS requires investment income
and expenses to be allocated among segments based on the ratio of the segment's weighted
average value (WAV) of assets to total company WAV of assets.

In addition, CAS 413 .50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment's ratio of pension plan
assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Medicare Segment Asset Adjustment

NH - VT incorrectly ide11tified the beginning market value of assets as of January 1, 1993. In the
appendix of the 1993 valuation report, NH - V1~ correctly identified $535,722 as the Medicare
segment assets as of January 1, 19.93; however, in the 1994 actuarial valuation report, it identified
the Medicare segment assets as of January 1,1993, to be $586,142. As a result, NH -VT
overstated the Medicare segment assets by $50,420.

Contributions and Prepayment Credits Understated

NH - VT understated contributions and prepayment credits for the Medicare segment by $34,986,
due to (1) differences in the assignable pension costs and (2) incorrect assignment of a negative
contribution to the Medicare segment for 1988 through 1990. As a result, NH - VT understated
the Medicare segment assets by $34,986.

The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with CAS 412.50(a)(4) and FAR 31.201-1 (a), we applied prepayn1ent credits first to
current-year assignable pension costs because the credits were available at the beginning of the
year and then updated any remaining credits with interest to the next measurement (valuation)
date. We then allocated contributions as needed to assigned pension costs as ·of the date of
deposit.




                                                  4

For presentation purposes Table 2 includes only the years when there was a variance between
NH - VT's and our calculations of allocated pension contributions and prepayment credits.

                      Table 2: Comparison of Audited Contributions
                      Year     Per OIG   Per NH - VT Difference
                      1986            $0     $21,691     ($21,691)
                      1987             0       30,239      (30,239)
                      1988             0      (30,404)      30,404
                      1989                    (12,587)      12,587
                      1990             0°     (13,045)      13,045
                      1991             0       10,460      (10,460)
                      1994             0        5,730       (5,730)
                      1995        20,667       11,025        9,642
                      1996        49,236        8,900       40,336
                      2001        77,947       74,470        3,477
                      2002       152,632     159,017        (6,385)
                      Total     $300,482    $265,496      $34,986




                                               5

Net Transfers Understated

NH - VT understated transfers into the Medicare segment by $60,233. The differences in the
transfers occurred primarily because NH - VT did not value the 1996 transfers using the accrued
benefit cost method and because it failed to identify the 2002 transfers. As a result, NH - VT
understated the Medicare segment assets by $60,233.

Table 3 compares NH - VT's and our calculations of net asset transfers into the Medicare
segment.

            Table 3: Comparison of Audited Transfers into the Medicare Segment
               Year            Per OIG         PerNH- VT            Difference
               1986                  $59,492           $63,919            ($4,427)
               1987                  (11,824)           (11,824)                0
               1988                   (8,345)            (7,181 )          (1,164)
               1989                    1,035              2,726            (1,691)
               1990                  193,518           193,708               (190)
               1991                 (105,544)         (105,544)                 0
               1992                  (87,568)           (87,353)             (215)
               1993                   (2,144)            (2,273)              129
                                                                                           I




               1994                    7,047                849             6,198
               1995                  (12,993)           (17,442)            4,449
               1996                 (204,235)         (371,552)           167,317
               1997                  217,253           218,440             (1,187)
               1998                   (6,887)            (6,887)                0
               1999                        0                  0                 0
               2000                  238,876           242,268             (3,392)
               2001                  (91,143)           (90,689)             (454)
               2002                 (105,140)                 0          (105,140)
               Total                 $81,398           $21,165            $60,233

Earnings, Net Expenses Overstated

NH - VT overstated investment earnings, less administrative expenses, by $207,845 for the
Medicare segment primarily because (1) it incorrectly allocated positive investment earnings
instead of negative investment earnings to the Medicare segment in 2000 and (2) it used an
incorrect beginning market value of assets for 1993. In OLIr audited update, we allocated earnings
and expenses, based on the applicable CAS requirements.




                                                6

Table 4 compares NH - VT's and our calculations of earning, net expenses for the Medicare
segment.

                  Table 4: Comparison of Audited Earnings, Net Expenses
           Year            Per OIG          PerNH- VT             Difference
         1986                    $56,166             $56,167                  ($1)
         1987                     19,270              20,291               (1,021 )
         1988                     63,799              71,114               (7,315)
         1989                    101,336             108,986               (7,650)
         1990                    (17,680)            (18,676)                 996
         1991                    159,868             163,792               (3,924)
         1992                     26,192              27,262               (1,070)
         1993                     47,456              55,445               (7,989)
         1994                     (6,879)             (8,039)               1,160
         1995                    121,487             144,536              (23,049)
         1996                     90,256             104,724              (14,468)
         1997                    105,573              88,379               17,194
         1998                    121,968             110,710               11,258
         1999                    145,985             125,787               20,198
         2000                    (59,177)             95,919             (155,096)
         2001                    (98,902)            (80,483)             (18,419)
         2002                   (126,094)           (107,445)             (18,649)
      TOTAL                     $750,624           $958,469             ($207,845)

RECOMMENDATION

We recon1mend that NH - VT decrease its Medicare segment pension assets as of
December 31, 2002, by $163,046.

AUDITEE COMMENTS

In written comments on our draft report, the auditee concurred with our findings and
recommendation. NH - VT's Medicare contract was novated to National Government Services
(NGS) effective January 1,2007; therefore, NGS responded to the NH - VT segmentation draft
audit report. NGS concurred with our findings and recommendation and stated that it will
decrease the NH - VT Medicare segment pension assets as of December 31, 2002, by $163,046.

NOS's comments are included in their entirety as Appendix B.




                                              7

APPENDIXES

                           MARKET VALUE OF PENSION ASSETS                              APPENDIX A
                                   FOR THJ: PERIOD                                         Page 1 of6
                          JANUARY 1, 1986, TC) DECEMBER 31,2002



[          Description            Total Company         Other Segment       Medicare Segment I

IAssets January 1,1986       1L       $13,409,026          $13,031,709              $377,317 I

Prepayment Transfers                                                                       0
Contributions                21           238,899 °             238,899 °                  0
Earnings                     31         2,083,698             2,025,065               58,633
Benefit Payments             41        (1,137,176)           (1,137, 176)
Expenses                     51           (87,659)              (85,192)                   °
                                                                                      (2,467)
Transfers                    61                                 (59,492)              59,492
                                                  °
IAssets January 1, 1987                14,506,788           14,013,813               492,975    I
Prepayment Transfers                            0                                          0
Contributions                             529,736              529,736  °
Earnings                                  669,563              646,810                     °
                                                                                      22,753
Benefit Payments                         (900,931)            (900,931 )                   0
Expenses                                 (102,497)             (99,014)               (3,483)
Transfers                                       0               11,824               (11,824)

IAssets January 1,1988                 14,702,659           14,202,238               500,421   ·1



Prepayment Transfers                              0                     0                  0
                                                                                           0
Contributions
Other Transaction            71          (577,856)°            (577,856)°                  0
Earnings                                1,975,756             1,908,509               67,247
Benefit Payments                         (405,900)             (319,699)             (86,201)
Expenses                                 (101,309)              (97,861)              (3,448)
Transfers                                       0                 8,345               (8,345)

IAssetsJanuary 1,1989                  15,593,350           15,123,676               469,674    I
Prepayment Transfers                                                                       0
Contributions                                     °
                                                  0                     °
Earnings                                3,472,897             3,368,293 °                  °
                                                                                     104,604
Benefit Payments                       ( 1,043 ,48 1)        (1,043,481 )                  0
Expenses                                  (108,487)            (105,219)              (3,268)
Transfers                                          0             (1,035)               1,035

IAssets January 1, 1990                17,914,279           17,342,234               572,045    I
                             MARKET VALUE ()F PENSION ASSETS                           APPENDIX A
                                     FOR THE PERIOD                                       Page 2 of6
                            JANUARY 1, 1986, T() DECEMBER 31,2002



            Description             Total Company       Other Segment       Medicare Segment I

IAssetsJanuary 1,1990                    17,914,279         17,342,234               572,045    I
Prepayment Transfers                                0                0                     0
Contributions                                                        0                     0
Earnings                                   (451,725)°         (437,300)              (14,425)
Benefit Payments                           (805,970)          (805,970)
Expenses                                   (101,943)           (98,688)                    °
                                                                                      (3,255)
Transfers                                                     (193,518)              193,518
                                                    °
IAssets January 1, 1991                  16,554,641         15,806,758               747,883    I
                                                                     0                     0
Prepayment Transfers
Contributions                                     0 °                0                     0
Earnings                                  3,633,630          3,469,475               164,155
Benefit Payments                           (600,326)          (600,326)                    0
Expenses                                    (94,896)           (90,609)               (4,287)
                                                               105,544              (105,544)
Transfers
                                                    °
IAssets Jan uary 1, 1992                 19,493,049          18,690,842              802,207 I

                                                    0                                      0
Prepayment Transfers
Contributions                                       0                 0 °                  0
Earnings                                    730,849             700,772               30,077
Benefit Payments                         (1,477,348)         (1,238,213)            (239,135)
Expenses                                    (94,393)            (90,508)              (3,885)
Transfers                                         0              87,568              (87,568)

IAssets January 1, 1993                  18,652,157         18,150,461               501,696    I
Prepayment Transfers                              0
Contributions                             1,222,165           1,222,165 °                  °
Earnings                                  1,895,876           1,844,882                    °
                                                                                      50,994
Benefit Paynlents                          (652,657)           (652,657)
Expenses                                   (131,534)           ( 127,996)                  °
                                                                                      (3,538)
Transfers                                                          2,144
                                                    °                                 (2,144)

IAssets January 1,   1994                20,986,007         20,438,999               547,008 I
                              MARKET VALUE OF PENSION ASSETS                            APPENDIX A
                                      FOR THE PERIOD                                       Page 3 of6
                             JANUARY 1, 1986, T() DECEMBER 31,2002



            Description              Total Company       Other Segment       Medicare Segment    I
IAssets January 1,1994                    20,986,007         20,438,999               547,008    I
Prepayment Transfers                                0                  0                    0
Contributions                               1,441,235          1,441,235                    0
Earnings                                     (157,517)          (153,411)              (4,106)
Benefit Payments                         ( 12,926,845)       (12,847,110)             (79,735)
Expenses                                     (106,386)          (103,613)              (2,773)
Transfers                                           0             (7,047)               7,047

IAssets January 1,1995                     9,236,494           8,769,053             467,441     I
Prepayment Transfers            8/                 0             (1,674)                1,674
Contributions                              1,567,212          1,548,219                18,993
Earnings                                   2,484,879          2,358,674               126,205
Benefit Payments                            (594,111)          (594,111)                    0
Expenses                                     (92,901 )          (88,183)               (4,718)
Transfers                                          0             12,993               (12,993)

IAssets Jan uary   1, 1996                12,601,573          12,004,971              596,602    I
Prepayment Transfers
Contributions                              1,782,874 °                 0
                                                               1,733,638
                                                                                            0
                                                                                       49,236
                                                                (485,887)
Other Transactions
Earnings
                                            (485,887)
                                           2,054,582           1,956,748                    °
                                                                                       97,834
Benefit Paynlents                           (606,123)           (606,123)                   0
Expenses                                    (159,138)           (151,560)              (7,578)
Transfers                                          0             204,235             (204,235)



IAssets January 1, 1997                   15,187,881          14,656,022              531,859    I
Prepayment Transfers                                0
Contributions                              2,490,084          2,490,084  °                  0

Earnings                                   3,247,334          3,135,387              111,947°
Benefit Payments                            (697,379)          (697,379)                   0
Expenses                                    ( 184,887)         (178,513)              (6,374)
Transfers                                           0          (217,253)             217,253

IAssets January 1,1998                    20,043,033         19,188,348               854,685    I
 MARKET VALUE OF PENSION ASSETS         APPENDIX A
         FOR THF: PERIOD                   Page 4 of6
JANUARY 1, 1986, TO DECEMBER 31, 2002
                                     MARKET VALUE OF PENSION ASSETS                                   APPENDIX A
                                             FOR THE PERIOD                                                  Page 5 of6
                                    JANUARY 1, 1986, T() DECEMBER 31,2002



                Description                    Total Company         Other Segment        Medicare Segment    I
     Prepayment Transfers                                     0              ( 152,632)            152,632
     Contributions                                            0                      0                   0
     Earnings                                        (2,445,316)           (2,3 19,222)           (126,094)
     Benefit Payments                                (2,204,404)           (2,204,404)                   0
     Expenses                                                 0                      0                   0
     Transfers                                                0                105,140            (105,140)

     Assets December 31, 2002                        21,618,505           20,552,038             1,066,467 I
     PerNH - VT                         9/          $21,618,505          $20,388,992            $1,229,513 I
     Asset Variance                     10/                  $0             $163,046             ($163,046)

FOOTNOTES

1L   We calculated the Medicare segnlent assets based upon our computed asset fraction (2.8139 percent).
     We computed the asset fraction as explained in the "Findings" section of the report. The amounts
     shown for the Other segment represent the difference between the Total Company and the Medicare
     segment. All pension assets are shown at market value.

2/   We obtained Total Company contribution amounts from the actuarial valuation reports and
     Department of Labor/Internal Revenue Service Form 5500s. We allocated Total Company
     contributions to the Medicare segment based on the ratio of the Medicare segnlent funding target
     divided by the total company funding target. Contributions in excess of the funding targets were
     treated as prepayments credits and accounted for in the Other segment until needed to fund pension

3/   We obtained investment earnings from actuarial valuation reports. We allocated investment earnings
     based on the market value of Medicare assets at the beginning of the plan year after adjustment for
     transfers. For years starting with 1996, we allocated investment earnings based on the ratio of the
     segment's weighted average value (WAV) of assets to total conlpany WAV of assets as required by
     the Cost Accounting Standards (CAS).

4/   We calculated the Medicare segment's benefit payments based on actual payments to Medicare
     retirees. We obtained information on the benefit payments from documents prepared by NH - VT's
     actuarial consulting firm. We used actual benefit payments for Medicare segment retirees.

5/   We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

6/   We identified participant transfers between segments by comparing valuation data files provided by
     NH - VT. Our transfer adjustment considered each participant's actuarial liability and the funding
     level of the segment from which the participant transferred. For plan years starting with 1996, asset
     transfers were equal to the actuarial liability determined under the accrued benefit cost method in
     accordance with the CAS.
                                      MARKET VALUE OF PENSION ASSETS                                   APPENDIX A
                                              FOR THJ: PERIOD                                                 Page 6 of6
                                     JANUARY 1, 1986, TO DECEMBER 31, 2002



?J..   We obtained Other Transactions from docunlents prepared by NH - VT's consulting actuarial firm.
       Other Transactions represent plan merger and asset transfer activities. These Other Transactions did
       not have an impact on the Medicare segment.

8/     Prepayment credits represent funds available to satisfy future funding requirements, and are applied to
       future funding requirements before current year contributions in order to reduce interest costs to the
       Federal Government. Prepayment credits are transferred to the Medicare segment as needed to cover
       funding requirements.

9/     We obtained total asset anl0unts as of December 31, 2002, from documents prepared by NH - VT's
       actuarial consulting firm.

10/ The asset variance represents the difference between our calculation of Medicare seglnent assets and
       NH - VT's market value of assets.
                                                                                                                                        APPENDIXB





.=1:National c~vernm-;nt
  ,JlII{                   Services.,	                                                                        CLf!\l'\. RfHHJES
                                                                                                              l.   I'lld rlll,lll\ l.~~ (I;l;. t:l

           '",,(';.n;,J \.",,:/::qrl"lL'I\;     >..·/",·1,:,··' Ill;

           '''kli llnJ~ -"l.:l',,:, j{. •. , I
                                                                                                              ,)/jl(.          ,<     L'i'!-'
                                                                                                              : ,\.\.          :';""~":;.~"'"
                                                                                                                                          1''':.2
           ~ '~IiI,\'d!,·. 1-,.. I!;th 1;,'.   Il2~~_,
                                                                                                              \. 1. II ,        .:::' (, 1'     '-:~"   ;
           ,1\   \11,(",'"I",,!·,!.'i";.l,'                                                                   glHl!l       l'I~, .lk...... Il:tlwtl,.,      'n,




            Mr, Pal1i-:k J Cogley

            Regional Inspcdor (jcllcral til!' Audit Scn ices

            DIIHS-OI(i Oflice or Audit Seniccs [(e\.lion VII

            (,01 I'"st I ~'h Str,'ct                  •

            Itoom 2S.j:\

            Kansas Cit\, 'vIissouri ().j I0(,


            Rckrcncl': Itepar! :'iumhcr A-07-011-002(,c)


            Unlr "11', Cogk):

            We arc in receipt or the druli audit rq.J,'rt li'(lnl the Inspecll1r Ccneral cntitk:d "Relie\\ of The QlIalilicd
            Pension plan at "kw Ilampshire - Vermont Ilcalth Scn ic,~ for the Pcri"d January I. Ic)S6, thmugh
            Decemlwr 31. 20U2, The :--Jew Hampshire .. Vermont (NI-j - VT) i\,lcdicarc co IlI.rac I lIas novated to
            :"ational Ciowrnlllcnt Scrvices (,,(is) t'lleeti\e January 1. 2007 thus 0iGS is responding to this dran n:pnl'l,

            We C"'h:ur with the linding and recommendation and will decrease the NJ-I -- VT Medicare s,'gmenl
            pell5ion '1S,ets as PI' December 31. 2()02 by Slb_~,().j6,

            We appreciate ,he opportunity                               I()   respond 10 this dra[i report.

            Sincerely_




            Uknn lthodes
            ChicI' Financial Of!icer


            <:<::	           Sandra Milkr
                             Rpb Squire
                             J('nlllle Imel - Wclll'oint
                             Wend" Perkins
                              (jnry.l. (ir'lIlt -- CMS
